FEDERAL JURY CONVICTS REAL ESTATE INVESTOR IN
MORTGAGE FRAUD SCHEME
DALLAS - U.S. Attorney Richard B. Roper announced that a federal jury convicted
Vernon Cooks, Jr. a/k/a Jibreel Rashad on all counts of a federal indictment that charged him
with operating a mortgage fraud scheme in the Dallas area from approximately May 2003,
through December 2004.
Specifically, Cooks, age 40, was convicted of one count of bank fraud, seven counts of
wire fraud, and six counts of money laundering. Cooks is scheduled to be sentenced by the
Honorable Sam A. Lindsay, United States District Judge, on July 2, 2007. One other codefendant
who was involved in the same scheme has pled guilty and is awaiting sentencing. Codefendant
Deirdre Dione Anderson, who was charged with six counts of wire fraud, was
acquitted.
The government presented evidence at trial that Cooks, who held himself out as real
estate investor and the owner of Rashad Investment Group, knowingly created a scheme to
defraud mortgage lenders out of hundreds of thousands of dollars. Cooks used straw purchasers
to buy single-family homes in the Dallas area for amounts far above fair market value. Straw
purchasers testified that Cooks paid them to use their names and credit to purchase homes that
Cooks was going to rent to others. Cooks told the straw purchasers he would pay all closing
costs, mortgage payments and taxes associated with the properties until he transferred them out
their names, within six months to a year after closing.
To support the inflated sales prices of the homes, Cooks used fraudulent appraisals. He
also caused fraudulent loan applications and other supporting documents, including fraudulent
tax returns, W2s, and employment, rent and deposit verifications, to be submitted to the
mortgage lenders so that the straw borrowers would qualify for the inflated loans. Once the
lenders funded the loans, Cooks used the fraudulently-obtained proceeds to pay off the original,
bona-fide sellers and kept the rest of the funds for himself. Cooks then allowed the mortgage
loans to default in the straw purchasers names.
U.S. Attorney Roper praised the cooperative investigative efforts of the Federal Bureau of
Investigation and the Federal Deposit Insurance Corporation - Office of Inspector General The
case is being prosecuted by Assistant U.S. Attorneys Tammy Reno and Marcus Busch.
# # #
Last Updated 3/22/07
contact the OIG